U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

September 30, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Ali Hamza Suliman Al Bahlul v. United States of America
S.Ct. No. 21-339

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on August 24,
2021, and placed on the docket on September 2, 2021. The government’s response is due on
October 4, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including November 3, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Brian Fletcher
Acting Solicitor General
cc: See Attached Service List

21-0339
AL BAHLUL, ALI HAMZA SULIMAN
USA

MICHEL PARADIS
U.S. DEPARTMENT OF DEFENSE
MILITARY COMMISSION DEFENSE
ORGANIZATION
1620 DEFENSE PENTAGON
WASHINGTON, DC 20301
703-695-4672
MICHEL.PARADIS@OSD.MIL
TODD PIERCE
UNIV. OF MINNESOTA HUMAN RIGHTS
CENTER
229-19TH AVENUE SOUTH
MONDALE HALL, N-120
MINNEAPOLIS, MN 55455

